No. __________________
IN THE

SUPREME COURT OF THE UNITED STATES
ROBERT RONALD PERALES
Petitioner
v.
THE STATE OF TEXAS

Respondent
PROOF OF SERVICE
I, THEODORE LEE WOOD, DO SWEAR OR DECLARE THAT ON THIS
DATE, SEPTEMBER 22, 2021, as required by Supreme Court Rule 29, I have served the
enclosed PETITON FOR A WRIT OF CERTIORARI and MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS on each party to the above proceeding and
that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed
to each of them and with first class postage prepaid. The names and addresses of those
served are:
Ms. Kim Ogg
Harris County District Attorney
500 Jefferson Street, Suite 600
Houston, Texas 77002

Mr. Ken Paxton
Texas State Attorney General
P.O. Box 12548
Austin, Texas 78711-2548

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 22, 2021.

_/s/ Theodore Lee Wood______________
THEODORE LEE WOOD
Assistant Public Defender
Harris County Public Defender’s Office
TBN 21907800
1201 Franklin Street, 13th Floor
Houston, Texas 77002
Phone: (713) 274-6705
Fax: (713) 368-9278
ted.wood@pdo.hctx.net

